No:

IN THE
SUPREME COURT OF THE UNITED STATES

OCTAVIUS MCLENDON and HENRY BRYANT,

Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioners, Octavius McLendon and Henry Bryant, pursuant to SuP CT. R. 39.1, respectfully
move for leave to file the accompanying petition for writ of certiorari in the Supreme Court of the
United States without payment of costs and to proceed in forma pauperis.

Petitioners were previously found financially unable to obtain counsel and counsel was
appointed to represent Petitioners pursuant to 18 U.S.C. ยง 3006A. Therefore, in reliance upon RULE
39.1 and ยง 3006A(d)(6), Petitioners have not attached the affidavit which would otherwise be

required by 28 U.S.C. ยง 1746.

RICHARD C. KLUGH, ESQ.
Counsel for Petitioner
Ingraham Building

25 S.E. 2nd Avenue, Suite 1105
Miami, Florida 33131

Tel. No. (305) 536-1191

Miami, Florida
July 2020
